AUDIT OF PERSONNEL ACTION PROCESSING CONTROLS AND
                     SECURITY



                 Audit Report No. 99-028




                OFFICE OF AUDITS

           OFFICE OF INSPECTOR GENERAL




                           1
Federal Deposit Insurance Corporation                                                              Office of Audits
Washington, D.C. 20429                                                                Office of Inspector General



   DATE:                 July 29, 1999

   TO:                   Donald C. Demitros, Director
                         Division of Information Resources Management

                         Arleas Upton Kea, Director
                         Division of Administration




   FROM:                 Steven A. Switzer
                         Deputy Inspector General

   SUBJECT:              Audit of Personnel Action Processing Controls and Security
                         (Audit Report No. 99-028)

   The Office of Inspector General (OIG) has completed an audit of controls and security over
   personnel action processing, an activity that includes the management of comprehensive data files on
   individual employees. These data originate from numerous events that an individual experiences
   during his/her employment with the federal government, such as organizational changes and changes
   in pay and benefits. An employee’s record may include over 100 data elements, and the integrity of
   this data must be preserved over the employee’s federal government career.



   BACKGROUND

   FDIC’s processing of personnel actions is performed using information systems operated by the
   FDIC and the United States Department of Agriculture (USDA) National Finance Center (NFC)
   located in New Orleans, Louisiana. The FDIC’s Personnel Action Request System (PARS)
   collects the necessary information to generate a personnel action from both the requesting office
   and the Personnel Services Branch (PSB). The combined information is electronically
   transmitted to the NFC computer facility which, in turn, updates its database and transmits a
   completed Notification of Personnel Action (SF-50) back to the FDIC. PSB then places the form
   in the employee’s Official Personnel Folder and forwards a copy to the employee and the
   originating office.

   Computer security for the NFC systems is provided through the use of mainframe access control
   software that is used to control which NFC application systems a specific operator can access.
   FDIC’s mainframe access control software is used to control which individuals may initiate or
   update requested personnel actions through PARS. Approvals of requested personnel actions are
   controlled by PARS accepting only those approval messages transmitted via Email from
   designated users. PARS uses specialized, purchased software to perform this function.
DIRM and the Division of Administration (DOA) recently initiated a project to provide the FDIC
with an integrated personnel management system that will replace PARS and other personnel-
related systems. FDIC management plans to implement the Corporate Human Resource
Information System (CHRIS) using commercial off-the-shelf software to provide personnel
action support, time and labor processing, position management, vacancy announcement tracking,
benefits tracking, and performance management.

Personnel action processing was previously addressed by the OIG in an audit of the FDIC’s
combined personnel and payroll functions and an audit of general information systems security in
the FDIC Dallas regional office. The report resulting from the combined personnel and payroll audit
was entitled Information Systems Audit of Payroll and Personnel Systems and was issued on April
25, 1995. This report concluded that the various systems for processing payroll and personnel
transactions had security weaknesses and that certain controls related to payroll processing needed to
be strengthened. The report recommended changes in the review and approval process for assigning
access privileges to the Corporation’s systems, utilities, and databases. Management agreed with the
report’s recommendations and our review did not identify similar concerns. In addition, a recent
audit report entitled Information Systems Security – Dallas (Audit Report No. D98-087) identified
weaknesses in the administration of access privileges for PARS that resulted in access privileges for
an excessive number of individuals. The report recommended actions to ensure that privileges were
based on need. Dallas management took actions to effectively address the recommendations.

DOA has performed internal control assessments of areas related to personnel services. The
assessments were performed to evaluate access controls for the Vacancy Tracking System, coding
and input accuracy for personnel actions, and controls over employee benefit information. The
information obtained during these assessments was used to improve controls and data accuracy.


OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of the audit were to determine the adequacy of information systems processing and
security controls over the origination and maintenance of individual employee personnel data related
to personnel actions. Our audit was limited to the portion of the process performed by PSB at its
headquarters and field locations in Dallas, Texas; and Atlanta, Georgia; and included tests of PARS
process controls. We did not perform tests of the NFC process controls because these systems fall
under the purview of the USDA OIG.

We performed a risk analysis to assess the adequacy of personnel action processing controls. We
identified the existing control procedures by reviewing systems documentation and existing
procedures and by interviewing PSB personnel. For each control risk, we identified and evaluated
the effectiveness of existing controls. We tested the effectiveness of the control procedures by
reviewing a sample of transactions and conducting tests of certain computerized controls provided
by PARS at PSB offices in Washington, D.C.; Dallas, Texas; and Atlanta, Georgia. We performed
our transaction reviews by judgmentally sampling transactions from the NFC database and
comparing this information to source documents contained in employees’ Official Personnel Folders.
Our sample consisted of 99 employees in Washington, D.C.; 69 in Dallas, Texas; and 48 in Atlanta,
Georgia. For each employee in our sample, we determined whether personnel actions processed
during the 12-month period ending September 30, 1998 were adequately supported and timely


                                                 2
processed.

To assess the adequacy of security controls, we reviewed systems access lists for PARS and the NFC
personnel processing systems. During our review of access privileges, we considered the individual
employee’s need to access and/or change personnel data and the type of system functions that should
be permitted to ensure appropriate separation of duties. We also evaluated PARS security
infrastructure to determine whether unauthorized users could circumvent existing controls. We
performed our evaluation by reviewing security tables in the ACF2 access control software and in
the DB2 database system.

We conducted the audit between September 1998 and January 1999 in accordance with generally
accepted government auditing standards.


RESULTS OF AUDIT

PSB developed and implemented a number of processes to enhance data integrity, including a well-
administered data verification program that involves periodically sending staffing tables to all
Divisions and Offices for verification and correction, followed by rigorous follow up to ensure a
timely and thorough effort by the Divisions and Offices. Further, PSB’s processing of personnel
actions was generally performed in a timely manner and employees’ Official Personnel Folders were
generally complete and well-maintained.

Our comparison of NFC data to records contained in the Official Personnel Folders of 216 FDIC
employees identified some discrepancies. For example, we noted seven Service Computation Date
(SCD) changes that were not supported by a Request for Personnel Action (SF-52). Additionally,
we noted that the 105 employee award transactions in our sample did not receive post-processing
reviews. We were unable to fully quantify the accuracy of personnel data processed because PSB
did not maintain copies or images of SF-52s, as submitted by the requesting FDIC organization and
prior to modification by PSB.

FDIC needs additional procedures, processes, and controls to more fully protect personnel database
files from unauthorized browsing and intentional or inadvertent unauthorized changes. Additional
controls are needed for direct file updates performed by PSB and NFC because these transactions are
performed without standardized source documents and, therefore, are not subject to PSB’s
reconciliation procedures. Additionally, PSB’s document matching process was limited in its
effectiveness because requests submitted by offices and divisions remained electronically modifiable
by PSB and were printed as official documents only after PSB completed all changes and
transmitted the documents electronically to NFC. The lack of historical source documentation, as
submitted by the originating office, precluded our ability to determine the extent to which this
control weakness resulted in actions not intended by the originating organization.

DIRM and PSB need to improve access controls for PARS, and PSB needs to more closely limit
access to the NFC systems that it uses to better prevent unauthorized access to sensitive data and
to enhance controls through separation of incompatible duties. Access controls were hindered by
the lack of current listings identifying employees’ access privileges. This lack of information
was instrumental in FDIC’s continued assignment of unnecessary access authorities to PARS and


                                                 3
its related data. Security was further diminished because at least 10 employees who, although
they were not assigned access to PARS, could inappropriately access PARS data directly.
Finally, FDIC’s overall security over corporate data was reduced by the existence of a general
use, systems level user identification (ID) and password combination originally intended for
training purposes. This generic ID and password combination was not assigned to an individual,
thereby eliminating accountability, and provided the ability to access all mainframe data files,
including operating system files.

Many of the recommendations contained in this report are directed at improving PSB and DIRM
control procedures. PSB stated its commitment to such improvements as part of its plan to engage a
contractor to fully document its operating procedures. Further, DIRM took action during the audit to
correct all of the security concerns that we reported to them.


CERTAIN CONTROL PROCEDURES NEED TO BE STRENGTHENED

PSB can strengthen certain controls to ensure the accuracy and appropriateness of some types of
transactions. PSB’s primary control over the creation and modification of employee data was the
matching of source documents, SF-52, with output documents, SF-50. However, some
transactions such as master file updates performed by NFC, data updates performed by PSB, and
employee awards were not subjected to the matching process or compensating control processes.

PSB did not perform document matching for these types of transactions because they were not
originated by SF-52s created through PARS and transmitted electronically to NFC. Instead,
these transactions were entered directly into the NFC Personnel Action Processing System
(PACT) by PSB or directly into the data base files by NFC, bypassing both PARS’ controls and
PSB’s reconciliation controls. PACT is the main online remote entry system used to forward
personnel actions to NFC. The Master File updates made by NFC and the PACT update
transactions made by PSB were in particular need of compensating controls because, in addition
to not being subjected to a reconciliation process, they were not supported by an audit trail.

Master File updates by NFC are infrequent and none were noted in our audit sample. The data
affected are computer-derived, in the form of cumulative totals on elapsed days of employment,
used to determine the achievement of milestones related to probationary periods and particular
terms of appointment. However, because changes to these data are not reconciled or subject to
an audit trail, other controls mechanisms are needed to ensure the accuracy and integrity of these
data.

Compensating controls are also needed for PSB data updates made via the PACT system Data
Update screen. Although classified by NFC as unofficial changes, up to 40 different employee-
related data elements can be entered or modified through the Data Update screen without a
record of the action, including probationary period start date, grade retention expiration date,
annual leave category, and Thrift Savings Plan eligibility code.

Employee awards were also not processed through PARS, but were input directly to PACT
without the preparation of an SF-52. Instead, PSB employees prepared voucher sheets listing the


                                                 4
affected employees and their respective award amounts. However, PSB had not established a
pre- or post-processing review using the voucher sheets, and the transactions were not recorded
in an audit trail.

Sound internal control practices dictate that transactions should be adequately controlled to ensure
proper authorization, input, and processing. Without such controls, PSB cannot be assured that its
records and related personnel actions are accurate and appropriate. We were unable to determine
the extent to which the lack of such controls contributed to inaccuracies in personnel records
because PSB did not maintain source documentation for all transactions.


Recommendation

We recommend that the Director, Division of Administration,

(1)    Develop procedures to ensure the integrity of NFC-generated, PACT-generated, and
       employee award transactions.


SUPPORT FOR PERSONNEL ACTIONS CAN BE IMPROVED

PARS did not ensure that personnel actions were fully documented. When processing a request
for a personnel action, the submitting organization initiated and approved an SF-52 through
PARS and transmitted the request to PSB. However, this document remained electronically
modifiable by PSB and was printed as an official document only after PSB made additions and
modifications and transmitted the document to NFC. Further, PARS provided PSB the
capability to change, without an audit trail, all SF-52 data elements, except for employee name
and social security number.

While we recognize that it is sometimes necessary for PSB to change SF-52s submitted by client
organizations because of its specialized expertise and possession of information not always
available to the originating organization, controls are needed to ensure that requests continue to
accurately represent the intent of the requestor. While a copy of the SF-50 is forwarded to the
employee and the client organization, PSB had not established a procedure requiring clients to
compare SF-50s with the original requests submitted through PARS.

Sound internal control practices dictate that all transactions are traceable to properly authorized
source documents and that accountability is established for data origination and changes to
ensure that erroneous or unauthorized transactions are limited and identified. Weaknesses in
such control practices may result in the processing of personnel actions that are not consistent
with the intent of the originating organization. The extent to which this may have occurred could
not be determined due to the cited absence of an audit trail.

We recognize that it may not be cost beneficial to address the control weakness cited through
changes to PARS because DOA is currently planning to acquire and implement the Corporate
Human Resources Information System (CHRIS) to provide for its overall data processing


                                                  5
requirements, including the processing of personnel actions. However, these control weaknesses
should be addressed through the CHRIS project to ensure that personnel actions are properly
authorized and consistent with the intent of the originating organization.


Recommendations

We recommend that the Director, Division of Administration,


(2)    Develop written procedures, requiring submitting organizations to compare SF-52s
       submitted to PSB to SF-50s received at the end of the process to ensure the accuracy and
       consistency of the personnel actions processed and report the results to PSB.

(3)    Ensure that the CHRIS subsystem intended to replace PARS incorporates the capability
       to preserve a permanent image or record of the original SF-52 submitted by the
       requesting organization and provides an audit trail of changes and additions made to the
       request.


SUPPORT FOR CHANGES IN SERVICE COMPUTATION DATES CAN BE IMPROVED

PSB had not established controls that ensured the integrity of SCD data. PSB must initiate SCD
changes when it identifies an error in the originally entered date. This generally occurs when an
incorrect date is reported from an employee’s prior agency. SCD changes are generally
originated by PSB and not based on an SF-52 received from a submitting organization.
Of the personnel data changes originated by PSB, changes in SCD are one of the more critical in
terms of impact because they affect employee benefits such as amount of annual leave earned
and retirement eligibility. PSB maintained source documentation for all nine of the SCD
changes contained in our sample. Two SCD transactions were supported by SF-52s and seven
were supported by computer-generated worksheets or hand-written calculations. However, four
of the seven transactions supported only by worksheets or manual calculations did not identify
the individual who prepared the supporting documentation or entered the transaction. In
addition, only the two SCD transactions supported by SF-52s contained evidence of supervisory
review.

Sound internal control practices dictate that transactions should be supported by documentation
identifying the individual originating and entering the transaction and evidence of supervisory
review. Without such controls, PSB cannot be assured of the integrity of SCD data. We did not
determine the extent to which these needed control improvements impacted the accuracy of SCD
data because of the general absence of SF-52s supporting these transactions and the related
difficulty in identifying the transactions.




                                                6
Recommendation

We recommend that the Director, Division of Administration,

(4)    Develop procedures requiring a standard format for supporting SCD calculations and for
       identifying the individual responsible for the calculations and that the resulting transactions
       are input to PARS or the NFC system based on a properly approved SF-52.


WEAKNESSES IN PARS AND NFC SECURITY ADMINISTRATION

PSB can improve its procedures for controlling access to PARS and the NFC systems used to
process personnel actions. PSB provided employees with PARS access authorities that reduced
controls by providing, in some cases, the ability to perform incompatible functions. Further,
PSB employees and former PSB employees who no longer had a need for such access were
provided access authorities to NFC systems used to process personnel actions.

Security and control for PARS is administered through a system of control tables that determines
who can gain access to PARS and what functions they can perform. We identified 26
individuals in PSB’s Washington, D.C., office who were provided the incompatible authorities of
both establishing and filling positions. Limiting the functions that a system user can perform can
enhance controls by separating incompatible duties.

Further, we identified individuals in PSB’s Washington D.C. office who were performing the
control function of matching input documents with output documents who were also given
PARS privileges for creating, modifying and deleting data.

The unneeded access authorities noted were due, in part, to the lack of periodic information
available to PSB on assigned access authorizations for PARS. PSB had not created or requested
that DIRM create a report identifying PARS users and their assigned access authorities. Without
such information, effective control over PARS access and related processes is difficult to attain.

PSB can also improve security for personnel action processing by better controlling access to NFC
systems that are used in the processing of personnel actions. Ten PSB employees and four non-PSB
employees were assigned access authorities to NFC’s PACT system, which provides the ability to
modify personnel-related data online without an audit trail of the actions performed. The
assignment of such authorities to 10 PSB employees does not appear to be necessary due to the
limited use of this form of data entry and the lack of controls discussed earlier in this report. In
addition, PSB, in not revoking PACT authorities for former PSB employees, further reduced
controls over personnel action processing.

Sixty-three PSB employees and four former PSB employees were assigned authority to access
NFC’s Suspense Inquiry and Correction System (SINQ), which enables users to access transactions
in suspense due to edit errors and make corrections. Access to error correction applications such as
SINQ should be limited to only PSB employees who need the access to carry out their duties.
While we did not determine the number of PSB employees who require such access, the assignment
of these authorities to such a large number of employees, including employees no longer assigned to


                                                  7
PSB reduces controls and increases the risks to data integrity.


Recommendations

We recommend that the Director, Division of Administration,

(5)     Review the duties of each employee on the Systems Support Staff to identify those who do
        not need access to both the Classification Review option and the Review of SF-52 option
        and modify the system tables to provide access to only those employees who require such
        access to perform their duties.

(6)     Reassign duties and/or revise PARS access privileges so that individuals performing the
        control function of matching input documents (SF-52s, etc.) with output documents (SF-
        50s) are not provided the ability to create, modify, or delete data.

(7)     Revoke access privileges to the NFC SINQ system for all individuals not in PSB and for
        PSB employees who do not require such access to ensure effective and efficient SINQ
        processing.

(8)     Revoke access privileges to the NFC PACT system for individuals who are not in PSB and
        limit the number of PSB employees to the number needed to effectively and efficiently
        perform PACT processing.

(9)    Develop, periodically distribute, and review reports identifying individuals assigned access
       authorities related to personnel action processing. Based on these reviews, ensure that all
       unnecessary access authorities are revoked.


WEAKNESSES IN PARS SYSTEMS LEVEL SECURITY ADMINISTRATION

DIRM had not taken action to appropriately limit direct access to PARS files. The FDIC
mainframe access control facility (ACF2), and security features of the DB2 data base
management system are used to protect PARS from unauthorized direct file access, an activity
which would effectively circumvent the PARS application level security controls. Prevention of
direct access to PARS files is vital the integrity and security of PARS data.

ACF2 protects PARS and other mainframe application systems by linking individual user
identifications (IDs) with specific computer resources and files. The ACF2 rules contained three
IDs that enabled the users to directly access PARS files and perform read and update functions
without being subjected to the controls provided by the PARS application system. The identity
of all individuals using the IDs could not be determined because one of the IDs was assigned
generically rather than to a specific user. The ID was created for general purpose training use
and was not revoked when it was no longer needed. Consequently, anyone using this ID could
bypass the accountability controls that would identify the persons responsible for any actions
taken. Because the training ID was inadvertently linked with DIRM Production Control Unit


                                                  8
privileges, persons using this ID could read or edit all data residing on the FDIC’s mainframe
without being held accountable for their actions. This security exposure was further
compounded because a user of this ID could also edit operating system files and, therefore,
manipulate mainframe operations, including bringing about a system shutdown without detection
or accountability.

In addition to the overly powerful ID issued for training purposes, the ACF2 rules contained
another ID with direct access to PARS files, which was issued to an employee in the Division of
Finance. The ID was included in a group ID intended for the DIRM database administration
group and, therefore, had read and update privileges to most FDIC mainframe data. Finally, the
ACF2 rules contained an ID that was issued to a DIRM contract person no longer assigned to the
PARS project.

ACF2 administration, pertaining to DB2 backup datasets, can also be improved. Because ACF2
tables did not include a rule concerning the backup datasets, a default rule applied that gave read
and update privileges to 77 individuals in four DIRM operating groups that should not have been
provided these capabilities. Thus, these individuals could read sensitive personnel data. Some
of these individuals were also provided the capability to improperly modify the backup data files.

Similar to ACF2, the FDIC’s DB2 data base management system also has tables linking users
with files they are allowed to access. The DB2 tables, however, perform this function at a
greater level of specificity as to what data elements can be accessed. Seven individuals listed on
these tables had inappropriate ‘read’ access to PARS data, including one individual who had
update capabilities as well. This individual, a DOS Administrative Assistant, could read and edit
all DB2 files, bypass accountability controls, and grant similar privileges to anyone in FDIC.

These conditions were presented to DIRM during our audit. DIRM completed corrective actions
prior to issuance of this report. Therefore, we are not making any formal recommendations
regarding these conditions.


CORPORATION COMMENTS AND OIG EVALUATION

Written responses were provided by the Directors, DIRM and DOA, on June 10, 1999 and July
9, 1999, respectively. These responses are presented in Appendices I and II of this report. The
Director, DIRM, confirmed in his response that all issues requiring DIRM action had been
implemented prior to receiving the draft report. The Director, DOA, stated that most actions
have either been completed or will be completed by August 15, 1999. One exception pertained
to a recommendation regarding actions associated with the implementation of a system to replace
PARS (recommendation 3). DOA officials indicated that this recommendation would be
implemented by July 1, 2001. DOA’s response expressed disagreement with a proposed
recommendation contained in the draft report regarding reducing the number of individuals
assigned system administrator privileges. DOA’s response also indicated only partial
concurrence with recommendation 2. In a subsequent meeting, DOA prepared and presented
documentation indicating that six of the ten individuals cited in the draft report as having system
administrator authorities had reduced administrative capabilities. We confirmed this statement


                                                9
and, therefore, removed this finding and recommendation from the final report. During this
meeting, DOA officials also agreed to fully implement recommendation 2 and provided a
planned completion date of August 15, 1999.

The Corporation’s responses to the draft report provided the elements necessary for management
decisions on the report’s recommendations. Therefore, no further response to this report is
necessary. Appendix III presents management’s proposed action on our recommendations and
shows that there is a management decision for each recommendation in this report.




                                              10
                                                                                                    APPENDIX I

CORPORATION COMMENTS – DIVISION OF INFORMATION RESOURCES
                       MANAGEMENT
FDIC
Federal Deposit Insurance Corporation
3501 North Fairfax Drive. Arlington, VA 22226        Division of Information Resources Management

                                                              June 10, 1999


MEMORANDUM TO:                         David H. Loewenstein
                                       Assistant Inspector General




FROM:                                  Donald C. Demitros, Director
                                       Division of Information Resources Management

SUBJECT:                               DIRM Management Response to the Draft OIG Report Entitled,
                                       Audit of Personnel Action Controls and Security
                                       (Audit Number 98-904)


The Division of Information Resources Management (DIRM) has reviewed the draft audit report
and agrees with the findings. We would like to thank the OIG staff for working so effectively
with the DIRM ISS staff during this audit. Although no formal recommendations were identified
for DIRM, there were a number of necessary corrective actions that were identified by the OIG
and completed by DIRM prior to the issuance of this draft report. Each condition and the
associated corrective actions are identified below.

WEAKNESSES IN PARS SYSTEMS LEVEL SECURITY ADMINISTRATION

•   DIRM had not taken adequate actions to limit direct access to PARS files. The ACF2 tables
    contained three IDs which enabled the users to directly access PARS files and perform read
    and update functions without being subjected to the controls provided by the PARS
    application system. Two of the IDs also allowed access to most FDIC production datasets.

    Corrective Action Taken: 10/28/98 – The identified DIRM contractor who was no
                             longer assigned to PARS was removed from the UID.

                                       10/28/98 – The identified DOF employee with inappropriate access
                                       to PARS was removed from the UID.

                                       10/29/98 - The general purpose training ID was removed from the
                                       Production Control UID.



                                                       11
•     ACF2 tables did not include a rule concerning the backup datasets, a default rule applied that
      gave read and update privileges to 77 individuals in four DIRM operating groups that should
      not have been provided these capabilities.

      Corrective Action Taken: 12/11/98 - The ‘write’ access for the DB2 back-up datasets
                               was limited to production control and two people in the DIRM
                               General Systems Support Unit

                                DIRM ISS reviewed all ACF2 corrective actions again 3/31/99 and
                                all issues had been resolved.

•     Seven individuals listed on these (DB2) tables had inappropriate ‘read’ access to PARS data,
      including one individual who had update capabilities as well.

      Corrective Action Taken: 3/24/99 - The identified individual with update capability
                               was removed from the group_id PAR.

                                4/8/99 - The six identified individuals with ‘read’ access
                                were deleted from the secondary IDs.


Please address any questions to DIRM’s Audit Liaison, Rack Campbell, on 516-1422.

cc:      Vijay Deshpande, OICM
         Janet Roberson, DIRM RMB
         Sunil Porter, DIRM ISS




                                                  12
                                                                                          APPENDIX II

CORPORATION COMMENTS – DIVISION OF ADMINISTRATION


    Federal Deposit Insurance Corporation
          th
    550 17 Street, NW, Washington, D.C. 20429                         Division of Administration



                                                JULY 09, 1999

MEMORANDUM TO:                      David H. Lowenstein
                                    Assistant Inspector General


FROM:                               Arleas Upton Kea
                                    Director

SUBJECT:                            Management Response on Draft Report Entitled Audit of
                                    Personnel Action Controls and Security

The Division of Administration (DOA) has completed its review of the draft report issued by the
Office of the Inspector General (OIG) entitled “Audit of Personnel Action Controls and Security”
(audit number 98-904). DOA appreciates the study performed by the OIG. As noted in the OIG
report, DOA PSB is committed to making improvements in documenting its operating
procedures. Overall, DOA agrees with the report's conclusions.

DOA has evaluated each of the report recommendations and provides the following proposed
management decisions for your review.

MANAGEMENT DECISION

Recommendation 1: Develop procedures to ensure the integrity of NFC-generated, PACT-
generated, and employee award transactions.

Management Response 1: DOA concurs with this recommendation. PSB has developed
procedures to enhance data integrity with respect to master file updates performed by NFC, data
updates performed by PSB, and employee award transactions.

Recommendation 2: Develop written procedures, requiring submitting organizations to
compare SF-52s submitted to PSB to SF-50s received at the end of the process to ensure the
accuracy and consistency of the personnel actions processed and report the results to PSB.

Management Response 2: DOA concurs in part with the recommendation. It is the current
business practice among the Division/Office Administrative Staffs to routinely compare the
Personnel Action Requests (PARS) to the SF-50s to ensure that actions are properly processed.
In addition, a Sr. Personnel Staffing Assistant reviews for accuracy all SF-50s by comparing


                                                        13
them to the SF-52 and supporting documentation. Furthermore, employees act as a
compensating control by evaluating the SF-50 upon receipt. We believe that these actions
address the intent of the recommendation.

Recommendation 3: Ensure that the CHRIS subsystem intended to replace PARS incorporates
the capability to preserve a permanent image of the original SF-52 submitted by the requesting
organization and provides an audit trail of changes and additions made to the request.

Management Response 3: DOA concurs with the recommendation. The CHRIS subsystem
will incorporate the capability to track all changes to a personnel action from the original request
to the final processed action submitted by the Servicing Personnel Office. The information will
be retained in the database as a permanent record for a specified time.

Recommendation 4: Develop procedures requiring a standard format for supporting SCD
calculations and for identifying the individual responsible for the calculations and that the
resulting transactions are input to PARS or the NFC system based on a properly approved SF-52.

Management Response 4: DOA concurs with the recommendation. Personnel Assistants will
use the FRC Retirement Calculator to determine the SCD’s (Leave, Retirement and RIF) for all
new employees, including those who come to FDIC from another Federal Agency. The
information sheet will be filed in the employee’s OPF. Additionally, PSB will require the
Personnel Assistant to sign the information sheet and have the information reviewed by the
Personnel Specialist before the sheet is filed in the OPF. The information sheet will show the
employment dates used to calculate the SCD, the name of the Personnel Assistant who prepared
the sheet, and the Personnel Specialist who reviewed it. We anticipate that this practice will be
implemented by August 1, 1999.

Recommendation 5: Review the duties of each employee on the Systems Support Staff to
identify those who do not need access to both the Classification Review option and the Review
SF-52 option and modify the system tables to provide access to only those employees who
require such access to perform their duties.

Management Response 5: DOA concurs with the recommendation. A review will be made of
each staff member’s need to access PARS, and appropriate action will be taken. We anticipate
completing this action by August 1, 1999.

Recommendation 6: Reassign duties and/or revise PARS access privileges so that individuals
performing the control function of matching input documents (SF-52s, etc.) with output
documents (SF-50s) are not provided the ability to create, modify, or delete data.

Management Response 6: DOA concurs with the recommendation. A review will be made to
determine the level of access to PARS required by each staff member, and appropriate action
will be taken. We anticipate completing this action by August 1, 1999.




                                                14
Recommendation 7: Reduce the number of PSB employees assigned PARS System
Administration access privileges to the minimum number needed to ensure effective operation of
processing personnel actions.

Management Response 7: DOA does not concur with the recommendation. We reviewed the
roles and responsibilities for those employees who currently have system administrator
privileges within PARS. We find the number of personnel with administrator privileges is
appropriate. Four of the ten individuals in PSB/Washington identified as system administrators
are the program managers/data stewards and system administrators of PARS. The other six
individuals identified as system administrators are “User System Administrators” in the
Washington Personnel Services Section (WPSS). WPSS has three teams processing PARS
actions. For each team, there is a primary and a backup administrator. The User System
Administrator function was designed to enable these WPSS teams to process or move personnel
actions when members of the WPSS are on leave to meet processing deadlines.

Recommendation 8: Revoke access privileges to the NFC SINQ system for all individuals not
in PSB and for PSB employees who do not require such access to ensure effective and efficient
SINQ processing.

Management Response 8: DOA concurs with the recommendation. Access for most of the
individuals outside of PSB has been revoked. A thorough review has been made of the
remaining individual accesses, and a request to revoke access was prepared and sent to the
National Finance Center (NFC) on May 28, 1999. Certain individuals with access to NFC SINQ
system will remain because the individuals perform functions (e.g., technical support, back-pay
and settlement cases) that require access to the system.

Recommendation 9: Revoke access privileges to the NFC PACT system for individuals who
are not in PSB and limit the number of PSB employees to the number needed to effectively and
efficiently perform PACT processing.

Management Response 9: DOA concurs with the recommendation. Access for most of the
individuals outside of PSB has been revoked. A thorough review has been made of the
remaining individual accesses, and a request to revoke access was prepared and sent to the
National Finance Center (NFC) on May 28, 1999. Certain individuals with access to the NFC
PACT system will remain because the individuals perform functions (e.g., technical support,
back-pay and settlement cases) that require access.

Recommendation 10: Develop, periodically distribute, and review reports identifying
individuals assigned access authorities related to personnel action processing. Based on these
reviews, ensure that all unnecessary access authorities are revoked.

Management Response 10: DOA concurs with the recommendation. A quarterly review of
PARS and NFC access has been established. Our first review was completed at the end of the
2nd quarter 1999. We made modifications to existing PARS reports to show access information.




                                               15
We will continue to seek ways to improve our personnel action controls and security and would
appropriate changes, as deemed necessary. We thank you for this opportunity to respond to the
report. If you have any questions regarding the response, our point of contact for this matter is
Andrew Nickle, Audit Liaison for the Division of Administration. Mr. Nickle can be reached at
(202) 942-3190.



Cc:    Cindy Medlock




                                               16
                                                                                                                                       APPENDIX III

                                              MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its semiannual
reports to the Congress. To consider FDIC’s responses as management decisions in accordance with the act and related guidance, several conditions are
necessary. First, the response must describe for each recommendation

   §   the specific corrective actions already taken, if applicable;
   §   corrective actions to be taken together with the expected completion dates for their implementation; and
   §   documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for any
disagreement. In the case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.
Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation
confirming completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions. The
information for management decisions is based on management’s written response to our report and subsequent discussions with management
representatives.




                                                                          17
                                                                                              Documentation That                   Management
 Rec.                                                                         Expected           Will Confirm          Monetary   Decision: Yes or
Number           Corrective Action: Taken or Planned/Status                Completion Date       Final Action          Benefits          No
         PSB has developed procedures to enhance data integrity of
         NFC-generated, PACT-generated, and employee award
  1      transactions.                                                      July 23, 1999    DOA written procedures     None            Yes


         PSB will develop written procedures requiring submitting
         organizations to compare SF-52s submitted to PSB to SF-50s
         received at the end of the process to ensure the accuracy and                                                                  Yes
  2      consistency of the personnel actions processed and report the     August 15, 1999      PARS Directive          None
         results to PSB.


         The CHRIS subsystem, intended to replace PARS, will
         incorporate the capability to track all changes to a personnel
         action from the original request submitted by the requesting                         Completion of PARS
  3                                                                          July 1, 2001                               None            Yes
         organization to the final processed action.                                           portion of CHRIS


         PSB will require a standard format for supporting SCD
         calculations to be signed by the Personnel Assistant and by the                        DOA standardized
  4      Personnel Specialist who reviewed it.                              August 1, 1999    information sheet and     None            Yes
                                                                                                written procedures

         PSB will review the duties of each employee on the Systems
         Support Staff to identify those who do not need access to both
  5      the Classification Review Option and the Review SF-52 option       August 1, 1999    PARS system tables        None            Yes
         and modify the system tables to provide access to only those
         employees who require such access to perform their duties.
         PSB will reassign duties and/or revise PARS access privileges
         so that individuals performing the control function of matching
  6                                                                         August 1, 1999    PARS system tables        None            Yes
         input documents with output documents are not provided the
         ability to create, modify, or delete data.
         Access to the NFC SINQ system for most of the individuals
         outside of PSB has been revoked. A thorough review has been                         NFC reports on access
  7                                                                         July 23, 1999                               None            Yes
         made of the remaining individual accesses, and a request to                              privileges
         revoke access was prepared and sent to the NFC.
         Access to the NFC PACT system for most of the individuals
         outside of PSB has been revoked. A thorough review has been                         NFC reports on access
  8                                                                         July 23, 1999                               None            Yes
         made of the remaining individual accesses and a request to                               privileges
         revoke access was prepared and sent to the NFC.
         A quarterly review of PARS and NFC access has been
  9      established. DOA made modifications to existing PARS                July 23, 1999    Access reports on file    None            Yes
         reports to show access information.



                                                                              18
